<html>
<title> - H. CON. RES. 295, RELATING TO CONTINUING HUMAN RIGHTS VIOLATIONS AND POLITICAL OPPRESSION IN THE SOCIALIST REPUBLIC OF VIETNAM 25 YEARS AFTER THE FALL OF SOUTH VIETNAM TO COMMUNIST FORCES</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
 H. CON. RES. 295, RELATING TO CONTINUING HUMAN RIGHTS VIOLATIONS AND 
  POLITICAL OPPRESSION IN THE SOCIALIST REPUBLIC OF VIETNAM 25 YEARS 
          AFTER THE FALL OF SOUTH VIETNAM TO COMMUNIST FORCES

=======================================================================

                                 MARKUP

                               BEFORE THE

                  SUBCOMMITTEE ON ASIA AND THE PACIFIC

                                 OF THE

                              COMMITTEE ON
                        INTERNATIONAL RELATIONS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                       WEDNESDAY, APRIL 12, 2000

                               __________

                           Serial No. 106-113

                               __________

    Printed for the use of the Committee on International Relations


 Available via the World Wide Web: http://www.house.gov/international 
                               relations

                                 ______



                    U.S. GOVERNMENT PRINTING OFFICE
64-749 cc                   WASHINGTON : 2000


                  COMMITTEE ON INTERNATIONAL RELATIONS

                 BENJAMIN A. GILMAN, New York, Chairman
WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           MATTHEW G. MARTINEZ, California
ILEANA ROS-LEHTINEN, Florida         DONALD M. PAYNE, New Jersey
CASS BALLENGER, North Carolina       ROBERT MENENDEZ, New Jersey
DANA ROHRABACHER, California         SHERROD BROWN, Ohio
DONALD A. MANZULLO, Illinois         CYNTHIA A. McKINNEY, Georgia
EDWARD R. ROYCE, California          ALCEE L. HASTINGS, Florida
PETER T. KING, New York              PAT DANNER, Missouri
STEVE CHABOT, Ohio                   EARL F. HILLIARD, Alabama
MARSHALL ``MARK'' SANFORD, South     BRAD SHERMAN, California
    Carolina                         ROBERT WEXLER, Florida
MATT SALMON, Arizona                 STEVEN R. ROTHMAN, New Jersey
AMO HOUGHTON, New York               JIM DAVIS, Florida
TOM CAMPBELL, California             EARL POMEROY, North Dakota
JOHN M. McHUGH, New York             WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   GREGORY W. MEEKS, New York
RICHARD BURR, North Carolina         BARBARA LEE, California
PAUL E. GILLMOR, Ohio                JOSEPH CROWLEY, New York
GEORGE P. RADANOVICH, California     JOSEPH M. HOEFFEL, Pennsylvania
JOHN COOKSEY, Louisiana
THOMAS G. TANCREDO, Colorado
                    Richard J. Garon, Chief of Staff
          Kathleen Bertelsen Moazed, Democratic Chief of Staff
                                 ------                                

                  Subcommittee on Asia and the Pacific

                   DOUG BEREUTER, Nebraska, Chairman
JAMES A. LEACH, Iowa                 TOM LANTOS, California
DANA ROHRABACHER, California         HOWARD L. BERMAN, California
PETER T. KING, New York              ENI F.H. FALEOMAVAEGA, American 
MARSHALL ``MARK'' SANFORD, South         Samoa
    Carolina                         MATTHEW G. MARTINEZ, California
MATT SALMON, Arizona                 SHERROD BROWN, Ohio
JOHN McHUGH, New York                ROBERT WEXLER, Florida
RICHARD BURR, North Carolina         JIM DAVIS, Florida
PAUL GILLMOR, Ohio                   EARL POMEROY, North Dakota
DONALD A. MANZULLO, Illinois         GARY L. ACKERMAN, New York
EDWARD R. ROYCE, California          ALCEE L. HASTINGS, Florida
JOHN COOKSEY, Louisiana
             Michael P. Ennis, Subcommittee Staff Director
         Dr. Robert King, Democratic Professional Staff Member
                         Matt Reynolds, Counsel
                  Alicia A. O'Donnell, Staff Associate


                            C O N T E N T S

                              ----------                              

                                APPENDIX

Bills:

H. Con. Res. 295.................................................     4
Amendment in the Nature of a Substitute to H. Con. Res. 295......     9

Additional material for the record:

A statement from the Honorable Doug Bereuter, a Representative in 
  Congress from Nebraska.........................................    13
A statement from the Honorable Dana Rohrabacher, a Representative 
  in Congress from California....................................    14


  H.CON.RES. 295, RELATING TO CONTINUING HUMAN RIGHTS VIOLATIONS AND 
  POLITICAL OPPRESSION IN THE SOCIALIST REPUBLIC OF VIETNAM 25 YEARS 
          AFTER THE FALL OF SOUTH VIETNAM TO COMMUNIST FORCES

                              ----------                              


                       Wednesday, April 12, 2000

                  House of Representatives,
              Subcommittee on Asia and the Pacific,
                      Committee on International Relations,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to notice, at 3:45 p.m., in 
room 2172, Rayburn House Office Building, Hon. Doug Bereuter 
(Chairman of the Subcommittee) presiding.
    Mr. Bereuter. The Subcommittee on Asia and the Pacific will 
come to order for markup of H. Con. Res. 295, concerning human 
rights violations and political oppression in the Socialist 
Republic of Vietnam 25 years after the fall of South Vietnam to 
Communist Forces, which the Clerk will read.
    [H. Con. Res. 295 appears in the appendix.]
    Clerk. H. Con. Res. 295, relating to continuing human 
rights violations and political oppression in the Socialist 
Republic of Vietnam 25 years after the fall of South Vietnam to 
Communist forces.
    Whereas 25 years after----
    Mr. Bereuter. Without objection, further reading of the 
resolution will be dispensed with, put in the record in full, 
and open for amendments at any point.
    The resolution was introduced on March 20th by the 
gentleman from California, Mr. Rohrabacher, to express concerns 
about the continuing human rights violations and political 
oppression in the Socialist Republic of Vietnam.
    I am fully in support of the resolution, as it will be 
amended shortly by the gentleman, and I would ask unanimous 
consent that my full statement be made a part of the record.
    The gentleman from California, Mr. Lantos, has expressed 
his willingness for us to proceed with the markup at this 
point, so I now turn to the sponsor of the resolution, the 
distinguished gentleman from California, a Senior Member of the 
Committee, Mr. Rohrabacher.
    Mr. Rohrabacher. Mr. Chairman, thank you very much. This 
resolution acknowledges the 25th anniversary of the end of the 
Vietnam War, and salutes the Vietnamese-American community that 
has developed since the end of the war throughout the United 
States and draws attention to their progress, but also 
contrasts that with the continuing human rights abuses and 
problems that continue in Vietnam, while acknowledging the 
service of our countrymen in that effort 25 years ago, and the 
sacrifice made of some 58,000 Americans as well as 300,000 
wounded Americans, in addition to the 270,000 South Vietnamese 
military personnel who gave their lives in that battle as well.
    So, I would submit my statement for the record and ask for 
this body to pass this on to the House Floor.
    Mr. Bereuter. Without objection, the gentleman's statement 
and the Chairman's statement will be made a part of the record.
    Seeing no other Members for discussion, the resolution is 
open for amendment. The Chair recognizes Mr. Rohrabacher.
    Mr. Rohrabacher. I have an amendment as a substitute.
    Mr. Bereuter. The Clerk will read the amendment.
    [The amendment of Mr. Rohrabacher appears in the appendix.]
    Clerk. The amendment in the nature of a substitute to H. 
Con. Res. 295, offered by Mr. Rohrabacher.
    Amend the preamble to read----
    Mr. Bereuter. Without objection, the amendment will be 
considered as read, put in the record, and the gentleman is 
recognized to explain this amendment, which addresses a number 
of minor concerns that the Administration and various Members 
have raised, and I thank the gentleman for his cooperation and 
I recognize him.
    Mr. Rohrabacher. The purpose of the amendment is to perfect 
the amendment and as other Members have brought their concerns 
forward and they have been very justified, we have made them 
part of the bill.
    Mr. Bereuter. Thank you, Mr. Rohrabacher. Seeing no members 
for discussion, the question is on the amendment. All those in 
favor will say ``aye''.
    [Ayes.]
    Mr. Bereuter. As many as are opposed will say ``nay''.
    [No response.]
    The amendment in the nature of a substitute is agreed to. 
Are there further amendments?
    [No response.]
    If no amendments, then the question occurs on agreeing to 
the resolution, as amended. As many as are in favor will say 
``aye''.
    [Ayes.]
    Mr. Bereuter. As many as are opposed will say ``no''.
    [No response.]
    The ayes have it, and the resolution is agreed to. Without 
objection, the staff is authorized to make technical, 
grammatical, and conforming changes to the text just agreed to, 
and I will recommend that the resolution be marked up by the 
Full Committee tomorrow and, if possible, handled on the 
suspension calendar.
    I thank the gentleman for his initiative, and we look 
forward to working together on other resolutions.
    If there is no further business before the Subcommittee, we 
are adjourned.
    [Whereupon, at 3:50 p.m., the Subcommittee was adjourned.]
      
=======================================================================




                            A P P E N D I X

                             April 12, 2000

=======================================================================

      
    [GRAPHIC] [TIFF OMITTED]64749.001
    
    [GRAPHIC] [TIFF OMITTED]64749.002
    
    [GRAPHIC] [TIFF OMITTED]64749.003
    
    [GRAPHIC] [TIFF OMITTED]64749.004
    
    [GRAPHIC] [TIFF OMITTED]64749.005
    
    [GRAPHIC] [TIFF OMITTED]64749.006
    
    [GRAPHIC] [TIFF OMITTED]64749.007
    
    [GRAPHIC] [TIFF OMITTED]64749.008
    
    [GRAPHIC] [TIFF OMITTED]64749.009
    
    [GRAPHIC] [TIFF OMITTED]64749.010
    
    [GRAPHIC] [TIFF OMITTED]64749.011
    
    [GRAPHIC] [TIFF OMITTED]64749.012
    

</pre></body></html>
